Office of Inspector General
    Audit Report


DOT DOES NOT FULLY COMPLY WITH
 REVISED FEDERAL ACQUISITION
      REGULATIONS ON THE
    USE AND MANAGEMENT OF
 COST-REIMBURSEMENT AWARDS
      Department of Transportation

      Report Number: ZA-2013-118
      Date Issued: August 5, 2013
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT Does Not Fully Comply With                                         Date:    August 5, 2013
           Revised Federal Acquisition on the Use and
           Management of Cost-Reimbursement Awards
           Department of Transportation
           Report Number ZA-2013-118

  From:    Mary Kay Langan-Feirson                                                     Reply to
                                                                                       Attn. of:   JA-60
           Assistant Inspector General for Acquisition and
             Procurement Audits

    To:    DOT Senior Procurement Executive

           In an effort to reduce spending, the President, Congress, and the Office of
           Management and Budget have directed the Federal Government to improve the
           effectiveness and efficiency of its procurement practices by reducing the use of
           high-risk contracts, such as cost-reimbursement contracts. Cost-reimbursement
           contracts pose a high risk for waste or misuse of taxpayer funds because they do
           not provide a direct incentive for the contractor to control costs. In addition,
           agency inspectors general, the Government Accountability Office (GAO), and
           other independent review bodies have identified that agencies sometimes use cost-
           reimbursement contracts without appropriate justification and do not provide
           sufficient management and oversight of these contracts.

           Despite the emphasis on decreased use of this contract type, the U.S. Department
           of Transportation (DOT), excluding the Federal Aviation Administration,
           increased its obligations for cost-reimbursement contracts between fiscal year
           2009 and fiscal year 2012—from $322 million to $506 million (from 18 percent to
           22 percent of all DOT contract obligations). 1 Since DOT obligates hundreds of
           millions of dollars in high-risk cost-reimbursement contracts each year, even
           minimal steps toward improving the use and management of these contracts could
           yield substantial savings for DOT, the Government, and ultimately the taxpayers.



           1
            We did not include the Federal Aviation Administration’s (FAA) obligations in these figures or in our audit review
           because the Agency is not required to comply with the Federal Acquisition Regulation.
                                                                                                                  2


The Duncan Hunter National Defense Authorization Act for Fiscal Year 2009
(Duncan Hunter Act) required that the Federal Acquisition Regulation (FAR) be
revised to provide additional guidance on the use and management of
cost-reimbursement contracts. The Act also required that each Office of Inspector
General review its agency’s compliance with these revisions within 1 year of the
published FAR revisions and include the results in its next semiannual report. The
FAR was revised in an interim rule effective March 16, 2011, and issued as a final
rule on March 2, 2012. 2 Accordingly, our audit objective was to assess whether
DOT and its Operating Administrations comply with the revised FAR
requirements on the use and management of cost-reimbursement contracts.

We conducted this review between July 2012 and May 2013 in accordance with
generally accepted Government auditing standards. To conduct our work, we
interviewed DOT and Operating Administration procurement officials and
reviewed the Duncan Hunter Act and the revised FAR requirements, including the
interim and final rules. To test compliance with the FAR revisions, we reviewed a
statistical sample of 31 cost-reimbursement awards selected from a universe of
655 DOT cost-reimbursement awards entered into between July 1, 2011, and May
31, 2012. Six DOT Operating Administrations were represented in this universe:
the Federal Highway Administration (FHWA), Federal Railroad Administration
(FRA), Federal Transit Administration (FTA), Maritime Administration
(MARAD), National Highway Traffic Safety Administration (NHTSA), and
Research and Innovative Technology Administration (RITA) John A. Volpe
National Transportation Systems Center (Volpe). 3 See exhibit A for more
information on our scope and methodology.

RESULTS IN BRIEF
The six DOT Operating Administrations we reviewed do not fully comply with
revised FAR requirements on the use and management of cost-reimbursement
awards. The Operating Administrations’ noncompliance is primarily attributable
to the Department’s lack of internal guidance for implementing these new
requirements and lack of oversight needed to verify departmentwide compliance.
We reviewed a random sample of 31 out of 655 cost-reimbursement awards,
including 11 contracts and 20 task orders. 4 Our review determined that the

2
  FAR Case 2008-030, “Proper Use and Management of Cost-Reimbursement Contracts”; Interim Rule, 76 Fed. Reg.
14547 (Mar. 16, 2011); Final Rule, 77 Fed. Reg. 12925-01 (Mar. 2, 2012).
3
  We excluded the Federal Aviation Administration from the scope of our review because the Agency is not subject to
the FAR or any changes to the FAR resulting from the Duncan Hunter Act.
4
  While not all of the revised FAR requirements explicitly address task orders, decisions about contract type can be
made at both the contract and task order level. Since cost-reimbursement task orders and contracts both involve
obligations of Government funds, the common application of the revised FAR requirements is to both cost-
reimbursement task orders and contracts. For consistency, we refer to both contracts and task orders as “awards”
throughout this report.
                                                                                                                  3


Operating Administrations’ practices for 15 of the 31 awards do not comply with a
significant portion, at least 25 percent, of the revised FAR requirements. 5
Specifically, we found that the Operating Administrations do not (1) fully comply
with the revised FAR requirements related to acquisition planning and
documenting justifications, or (2) consistently assess oversight risks, properly
designate oversight personnel, or verify that contractors’ accounting systems are
adequate to provide valid and reliable cost data.

• The Operating Administrations do not fully comply with the revised FAR
  requirements related to acquisition planning and documenting justifications for
  the use of cost-reimbursement awards. For example, in 16 of the 31 awards we
  reviewed, the awarding Operating Administrations did not document
  justifications for selecting cost-reimbursement awards. Notably, 14 of these 16
  noncompliant awards were task order awards. One reason for the high rate of
  noncompliance among task orders is that the Operating Administrations only
  applied the revised FAR requirements for planning and justification to
  contracts, not task orders. 6 However, use of cost-reimbursement contracts or
  task orders without proper justification could unnecessarily expose the Federal
  Government to higher risks.

• The Operating Administrations also do not consistently assess oversight risks,
  properly designate oversight personnel, or verify contractors’ accounting
  systems. The purpose of the revised FAR requirements is to ensure that
  agencies have adequate and qualified oversight staff in place to shoulder the
  increased oversight burden associated with cost-reimbursement awards. For 22
  of the 31 awards in our sample, the Operating Administrations designated
  official oversight personnel in writing; however, only 12 of these were
  designated prior to award, as required. Moreover, the designated oversight
  personnel for five of the awards in our sample lack support that they were
  properly certified to perform oversight.

We are making a series of recommendations to improve DOT’s compliance with
the revised FAR requirements on the use and management of cost-reimbursement
awards.




5
  We identified 39 revised FAR requirements that we used as a basis for computing compliance rates. However, not all
of the revised FAR requirements applied to every award in our sample, so the applicable requirements ranged in
number from 30-38.
6
  While the FAR revisions do not consistently include the word “order,” they require agencies to perform detailed
planning and to document justifications for all cost-reimbursement obligations of Government funds.
                                                                                  4



BACKGROUND
Section 864 of the Duncan Hunter Act required amendments to the FAR to
provide further guidance on the use and management of cost-reimbursement
contracts in three areas: (1) circumstances when cost-reimbursement contracts are
appropriate, (2) acquisition plan findings to support the selection of a cost-
reimbursement contract, and (3) acquisition resources necessary to award and
manage a cost-reimbursement contract.

Under a firm-fixed-price contract, the contractor accepts all cost risk and is fully
responsible for delivery of the goods or services at the agreed-upon price. As a
result, firm-fixed-price contracts provide maximum incentive for the contractor to
perform efficiently and impose the least administrative burden and risk on the
Government. In contrast, cost-reimbursement awards shift cost risk to the
Government and require the Government to pay all allowable costs incurred by the
contractor, thus providing the contractor with considerably fewer incentives for
controlling costs and placing greater administrative burden on the Government to
oversee the contractor’s progress and costs. In order to mitigate these additional
risks, the FAR imposes increased oversight requirements on agencies that choose
to use contract types other than firm-fixed-price.

DOT OPERATING ADMINISTRATIONS DO NOT FULLY COMPLY
WITH REVISED FAR REQUIREMENTS ON COST-
REIMBURSEMENT AWARDS
The six DOT Operating Administrations we reviewed do not fully comply with the
revised FAR requirements on use and management of cost-reimbursement awards.
The Operating Administrations’ noncompliance is primarily attributable to the
Department’s lack of internal guidance on the implementation of these new
requirements and lack of oversight needed to verify departmentwide compliance.
Of the 31 cost-reimbursement awards we reviewed, 15 do not comply with a
significant portion—from 28 percent to as much as 87 percent—of the revised
FAR requirements related to: (1) acquisition planning and justification for
selecting cost-reimbursement awards; and (2) assessment of oversight risks, proper
designation of oversight personnel, and verification of the adequacy of the
contractor’s accounting system to provide valid and reliable cost data. The
Operating Administrations that do not comply with these revised FAR
requirements face increased cost and performance risks associated with this
contract type.
                                                                                                              5


Insufficient Departmentwide Guidance and Oversight Resulted in
Varying Compliance Throughout the Department
DOT’s Office of the Senior Procurement Executive (OSPE) did not issue guidance
or oversee the Operating Administrations’ implementation of the revised FAR
requirements, which resulted in varying compliance across the Department. In the
absence of departmentwide guidance, the Operating Administrations applied their
own interpretations of the new requirements, including the view that the revised
FAR requirements on planning and justifications did not apply to cost-
reimbursement task orders. In addition, our review found that the Operating
Administrations that took the initiative to communicate the revised FAR
requirements and establish procedures for implementation had higher rates of
compliance than Operating Administrations that did not take such proactive steps.

OSPE Has Not Provided Sufficient Guidance and Oversight To Facilitate
Consistent Implementation of the Revised FAR Requirements
As part of its acquisition policy and oversight role, the Department’s OSPE is
responsible for ensuring DOT’s compliance with Federal and departmental
acquisition regulations. 7 However, OSPE has not issued guidance, established
internal policy, or updated the Transportation Acquisition Manual (TAM) to
reflect the revised FAR requirements on the use and management of
cost-reimbursement awards. While the Department did issue a high-level
communication in a “DOT DASH” to alert the Operating Administrations’ Chiefs
of the Contracting Office (COCOs) of the FAR revisions, 8 the communication did
not provide additional explanations or guidance on how the FAR revisions should
be implemented.

In addition, OSPE does not have procedures to assess whether the Operating
Administrations are consistently interpreting and applying the revised FAR
requirements, such as requiring contract file reviews to assess compliance. Instead,
OSPE relies on the Operating Administrations’ COCOs and contracting officers to
ensure compliance with these requirements. Our findings are consistent with a
January 2013 GAO report, which also noted that DOT lacked departmentwide
acquisition management oversight. According to GAO’s report, OSPE stated that
acquisition management was best left to the individual Operating Administrations,
given the decentralized nature of the Department. During our review, OSPE
officials informed us that the organization is currently re-evaluating its oversight

7
  The Services Acquisition Reform Act of 2003, Public Law 108-135, Section 1421, identifies the duties of Chief
Acquisition Officer (CAO), which includes monitoring the performance of acquisition activities and acquisition
programs of the executive agency. The Senior Procurement Executive reports to the CAO and is specifically
responsible for management direction of the agency’s procurement system, including implementing procurement
policies, regulations, and standards of the agency.
8
  DOT issued a “DOT DASH” in April 2011 regarding the interim rule and another in March 2012 regarding the final
rule.
                                                                                                                        6


role—with a goal to be more proactive than reactive—but has not formalized its
plans.

Operating Administrations Did Not Apply the Revised FAR Requirements
to Cost-Reimbursement Task Orders
Lacking guidance from the Department, the Operating Administrations developed
their own interpretations of the revised FAR requirements. A particular concern is
that the Operating Administrations applied the revised FAR requirements on
acquisition planning and documented justifications only to cost-reimbursement
contracts and not to cost-reimbursement task orders. While the FAR revisions do
not include the word “order” in all of the amended sections, the purpose of the
revisions is to require agencies to perform detailed planning and to document
justifications for all cost-reimbursement obligations of Government funds—which
would include both contracts and task orders issued after the March 16, 2011,
effective date. Therefore, we applied the revised FAR requirements to all cost-
reimbursement contracts and task orders in our sample. Similarly, other Federal
Offices of Inspector General—such as those from the Department of Defense and
General Services Administration—have also applied the revised FAR
requirements to both cost-reimbursement contracts and task orders in their
agencies.

The Department’s OSPE officials agreed with our view that cost-reimbursement
task orders issued after the effective date must comply with the revised FAR
requirements, regardless of when the base contracts were awarded. However,
OSPE officials noted that the FAR and DOT guidance do not require Operating
Administrations to develop separate written acquisition plans for individual cost-
reimbursement task orders. Instead, Operating Administrations could comply with
the revised FAR requirements for detailed and specific acquisition planning and
justifications by preparing documentation at either the base contract level or the
task order level. For example, Operating Administrations could update the base
contracts’ existing acquisition planning documents or develop supplemental
planning documentation specific to the task order. 9

While we agree with OSPE’s interpretation of the rule, we did not find evidence
that the Operating Administrations fully applied the revised FAR planning and
justification requirements at either the base contract level or the task order level
for the 20 task orders in our sample of 31 awards. Notably, all task orders in our
sample were issued under Indefinite Delivery Indefinite Quantity (IDIQ) base
contracts that allowed individual task orders to be issued on either a fixed-price or
cost-reimbursement basis. Although the acquisition planning documents for the
9
  It is possible for some base contracts to have sufficient acquisition planning and justification for all task orders, but
there were no such cases in our sample. In many cases, it may be difficult to adequately plan for future task orders
during the initial acquisition planning stage, especially to the level of detail required by the revised FAR requirements.
                                                                                                                     7


base IDIQ contracts were approved before the interim rule, all task orders we
reviewed were issued after the interim rule became effective. However, the
Operating Administrations did not update the base contracts’ acquisition planning
documents or prepare supplemental planning documents for these task orders to
comply with the revised FAR requirements on planning and justification.

By not applying the revised FAR requirements to these cost-reimbursement task
orders, the Operating Administrations are missing opportunities to better manage
or reduce high-risk contracting. For example, our sample included a $4.8-million
cost-reimbursement task order that Volpe issued in February 2012—during the
second year of a 5-year $234-million IDIQ contract. Although the revised FAR
requirements were in effect when the task order was issued, Volpe did not update
the base contract’s acquisition plan to address these new requirements, but did
prepare documentation that addressed some of the planning factors described by
the FAR change. If the Department does not ensure that Operating
Administrations comply with the revised FAR requirements when issuing cost-
reimbursement task orders, DOT will continue to be exposed to increased cost and
performance risks during the remaining years of the base contracts’ performance
periods. 10

Operating Administrations That Took Proactive Steps To Implement the
Revised FAR Requirements Had Higher Rates of Compliance
In the absence of departmentwide guidance, some Operating Administrations took
the initiative to notify procurement staff of the revised FAR requirements and to
implement oversight procedures to facilitate compliance. For example, FHWA
provided formal training on the revised FAR requirements. FHWA’s COCO also
issued internal guidance that created a formal process for implementing the
revised FAR requirements. Consequently, FHWA achieved a higher rate of
compliance than the other five Operating Administrations we reviewed.

Other Operating Administrations also established procedures that help ensure
compliance with the revised FAR requirements. For example, before the revisions
became effective, Volpe’s COCO established a procedure to standardize the
review and approval process for procurement actions, which includes a check for
FAR compliance. In addition, FTA’s COCO issued a standard Contracting Officer
Representative (COR) designation letter that includes all of the FAR revision
requirements for documenting COR designations and requires that a COR be
designated for every cost-reimbursement award, including individual task orders.

10
   The Duncan Hunter Act, which required the revisions to the FAR, aligns with the President’s goal of reducing high-
risk contracting as noted in the Presidential Memorandum on Government Contracting, dated March 4, 2009. The
Memorandum states that the use of cost-reimbursement type contracts creates the risk that taxpayer funds will be spent
on contracts that are wasteful, inefficient, subject to misuse, or otherwise not well designed to serve the needs of the
Government or interests of the taxpayers.
                                                                                                                   8


In contrast, MARAD did not implement such actions to facilitate compliance with
the revised FAR requirements and, consequently, achieved the lowest rate of
compliance.

Operating Administrations Do Not Fully Comply With Revised FAR
Requirements Regarding Acquisition Planning and Justifications
While some Operating Administrations have higher compliance rates than others,
none of the six DOT Operating Administrations fully complies with all revised
FAR requirements related to acquisition planning and justifications for use of cost-
reimbursement awards. Based on our review of a statistical sample of 31 cost-
reimbursement awards, we identified cases of noncompliance with the revised
FAR requirements for (1) written acquisition plans, (2) consideration of required
planning factors, 11 (3) consideration of transition to firm-fixed-price, and
(4) justifications for the use of a cost-reimbursement award.

Written Acquisition Plans Are Not Prepared When Required
According to the revised FAR requirements, agencies should develop written
acquisition plans that address specific planning factors to support the use of
contract types other than firm-fixed-price (including cost-reimbursement). In
accordance with the FAR, 12 DOT’s TAM establishes a dollar threshold for written
acquisition plans consistent with FAR for acquisitions greater than $20 million. 13
Of the 11 contracts in our sample of 31 cost-reimbursement awards, only 2
exceeded the $20-million threshold requirement. However, neither of these two
contracts—which have a combined value of approximately $71 million—have
written acquisition plans. In response, a NHTSA official, which awarded both
these contracts, stated that NHTSA’s procurement staff conduct comprehensive
acquisition planning meetings with their program offices six times a year but do
not record meeting notes or document these planning efforts.

Most Operating Administrations Consider the Majority of Required
Planning Factors
The revised FAR requirements state that a cost-reimbursement award may only be
used when planning factors specified in FAR section 16.104—such as
competition, price analysis, and urgency—have been considered and




11
    FAR 16.104 Factors in selecting contract types. According to the FAR, “planning factors” include: price
competition, price analysis, cost analysis, type and complexity of the requirement, combining contract types, urgency
of requirement, period of performance or length of production run, contractor’s technical capability and financial
responsibility, concurrent contracts, extent and nature of proposed subcontracting, and acquisition history.
12
   FAR 7.103(e) Acquisition Plans: Agency-head responsibilities.
13
   With certain exceptions. See TAM 1207.103 Agency-head responsibilities.
                                                                                                                       9


documented. 14 Although only 1 of the 31 awards we reviewed addressed all the
planning factors, 22 awards in our sample included documented consideration of
at least half of the required planning factors (see table 1).

Table 1. Compliance With FAR Requirement To Consider
Planning Factors
                                                 Sample awards that comply with FAR requirement

FAR requirement                          Total    MARAD         FHWA           FTA        FRA        Volpe       NHTSA
            a
Majority of planning
                                      23 / 31         0/5         5/5         4/5         5/5         6/8           3/3
factors considered
a
    In our review, we defined “majority” as 50 percent or more of the planning factors.
Source: OIG analysis of statistical sample of 31 cost-reimbursement awards from 6 DOT
Operating Administrations

Operating Administrations Seldom Consider Transition to Firm-Fixed-Price
According to the revised FAR requirements, as part of acquisition planning,
agencies should document their consideration of strategies to transition from a
cost-reimbursement to firm-fixed-price award type—whether for the current
award, future option years, or follow-on contracts. However, only 6 of the 31
awards we reviewed included documentation showing that the agencies considered
strategies to transition to a firm-fixed-price award (see table 2).




14
   For our review, we consolidated the 12 planning factors from FAR 16.104 into 10 categories: (1) price
competition/price and cost analysis, (2) type and complexity of the requirement, (3) urgency of the requirement,
(4) period of performance or length of production run, (5) contractor’s technical capability and financial responsibility,
(6) concurrent contracts, (7) extent and nature of proposed subcontracting, (8) acquisition history, (9) combining
contract types, and (10) adequacy of the contractor’s accounting system.
                                                                                                                  10


Table 2. Compliance With FAR Requirement To Consider
Transition to Firm-Fixed-Price Type
                                             Sample awards that comply with FAR requirement

FAR requirement                       Total MARAD           FHWA           FTA         FRA       Volpe      NHTSA
Consider transition to
                                    6 / 31        0/5         2/5         0/5         3/5         0/8          1/3
firm-fixed-price type
Source: OIG analysis of statistical sample of 31 cost-reimbursement awards from 6 DOT
Operating Administrations

The revised FAR requirements also require agencies to consider structuring the
contract to permit some or all of the work requirements to be awarded on a firm-
fixed-price basis. However, only 5 of 11 contracts in our sample of 31 awards
included documentation that met this requirement. 15 For example, FHWA did not
comply with this requirement when it planned a 5-year $2.7-million contract to
provide technical, publication, communication, marketing, and outreach support
for its Local and Tribal Technical Assistance Programs. However, this award may
have been a good candidate for transitioning to fixed-price type given the 5-year
period of performance and because FHWA had contracted for similar services in
the past. By not complying with FAR requirements to consider transition to a
fixed-price award, FHWA may have missed an opportunity to reduce the
Government’s risk and to alleviate oversight burdens.

Operating Administrations Do Not Consistently Document Justifications for
the Use of Cost-Reimbursement Type
According to the revised FAR requirements, an agency must document why the
use of a contract type other than firm-fixed-price is appropriate. The FAR states
that a cost-reimbursement award may only be used when (1) circumstances do not
allow the agency to define its requirements sufficiently to allow for a fixed-price
award or (2) uncertainties involved in contract performance do not permit costs to
be estimated with sufficient accuracy to use any type of fixed-price award. Only
15 of the 31 awards in our sample included documented rationale to justify the
selection of cost-reimbursement awards (see table 3).




15
  We applied this requirement only to the 11 contracts in our sample. We did not apply this requirement to the 20 task
orders in our sample since their IDIQ base contracts allowed for either fixed-price or cost-reimbursement orders.
                                                                                        11


Table 3. Compliance With FAR Requirement for Justifying the
Use of Cost-Reimbursement Awards
                                     Sample awards that comply with FAR requirement

FAR requirement              Total   MARAD      FHWA        FTA      FRA     Volpe    NHTSA
Justification for use of
cost-reimbursement type    15 / 31      0/5       5/5      0/5      5/5       2/8      3/3
documented
Source: OIG analysis of statistical sample of 31 cost-reimbursement awards from 6 DOT
Operating Administrations

Operating Administrations Do Not Consistently Assess Oversight
Risks, Designate Contracting Officers’ Representatives, or Verify the
Adequacy of the Contractors’ Accounting Systems
In our sample of 31 cost-reimbursement awards, we identified noncompliance
with the following requirements: (1) assessments of the additional risks, burdens,
and resources needed to award and manage cost-reimbursement awards; (2)
written designations of CORs prior to the award date; and (3) verification of the
adequacy of contractors’ accounting systems. Operating Administrations that
neglect to follow these FAR’s requirements face heavier oversight burdens and,
consequently, increased cost and performance risks.

Operating Administrations Do Not Consistently Assess Risks, Burdens,
and Resources
According to the revised FAR requirements, an agency that selects other than a
fixed-price award should include a documented discussion of the additional risks
and administrative burdens of managing the contract type selected. The discussion
should describe the nature of the additional risks and establish a plan to mitigate
risks. The FAR also requires a documented assessment of the adequacy of
Government resources necessary to properly plan for, award, and administer the
contract type selected. These requirements are critical because cost-reimbursement
awards often cause the Government to shoulder additional cost risks and increased
oversight burdens. However, our review determined that only 8 of the 31 awards
in our sample included a discussion of the additional risks and burdens of
managing a cost-reimbursement award. Additionally, only 14 of the 31 sample
awards contained assessments of the adequacy of Government resources to ensure
effective management of the risks (see table 4).
                                                                                                       12


Table 4. Compliance With FAR Requirements on Assessing
Risks, Burdens, and Resources

                                             Sample awards that comply with FAR requirement

FAR requirement                      Total      MARAD        FHWA           FTA        FRA   Volpe   NHTSA
Consider additional
                                   8 / 31         0/5          4/5          0/5        2/5   2/8      0/3
risks and burdens
Assess adequacy of
                                  14 / 31         0/5          5/5          1/5        5/5   3/8      0/3
acquisition resources
Source: OIG analysis of statistical sample of 31 cost-reimbursement awards from 6 DOT
Operating Administrations

Operating Administrations Do Not Properly Designate Contracting Officer’s
Representatives
According to the revised FAR requirements, a cost-reimbursement award may be
used only when, prior to the award of the contract or task order, adequate
Government resources are available to provide sufficient surveillance of contractor
performance. In addition, a properly trained COR must be designated in writing
for all cost-reimbursement contracts and orders before they are awarded. Our
review determined that the Operating Administrations designated CORs in writing
for 22 of the 31 awards in our sample. However, only 12 of the 22 designations
were issued prior to the date of award (see table 5). The remaining 10 COR
designations occurred anywhere from the same day as the award up to over
2 months after the date of award.

Table 5. Compliance With FAR Requirements for Designating
CORs Prior To Award

                                                Sample awards that comply with FAR requirement

FAR requirement                         Total    MARAD         FHWA           FTA      FRA   Volpe   NHTSA
Designated COR in
                                     22 / 31        0/5          3/5         5/5       3/5    8/8     3/3
writing
COR designation prior to
          a                          12 / 22         N/A         1/3         2/5       0/3    7/8     2/3
award date
a
    We only applied this requirement to the 22 awards that had written designations.
Source: OIG analysis of statistical sample of 31 cost-reimbursement awards from 6 DOT
Operating Administrations.

Further, only 16 of the 22 written COR designations included all specifications in
the revised FAR requirements, such as the COR’s responsibilities, authorities,
limitations, and period of delegation. The Department’s formal 2008 COR
Program Guidance includes a sample COR designation letter that addresses all of
                                                                                                                    13


the revised FAR requirements. However, the Operating Administrations are not
required to use the sample letter, and there are no controls to ensure that Operating
Administrations’ internal COR designations letters are sufficient to address the
new requirements.

Notably, MARAD lacks written COR designations for the five cost-
reimbursement task orders we reviewed; however, MARAD did designate CORs
in writing for the IDIQ base contracts associated with each of these task orders.
MARAD officials stated that it would be labor intensive to issue designation
letters for every task order under these contracts because they are ship manager
contracts that can include over 100 task orders. 16 We agree that a separate COR
designation may not be required for each task order if the agency clearly specifies
in the original base contract that the same COR will manage every task order
under that contract. However, we are concerned with this approach as the COR
may not be aware when work on a new task order has begun, especially given the
high volume of task orders under ship manager contracts and the fact that some
CORs oversee more than one ship manager contract at a time.

The revised FAR requirements also call for CORs to meet training requirements to
obtain COR certification, which must be maintained in accordance with Federal
policy. 17 Our review determined that four of the six Operating Administrations we
reviewed maintained documentation for each designated COR, verifying that the
COR was certified (see table 6). 18

Table 6. Compliance With FAR Requirements on Documentation
of COR Certifications

                                              Sample awards that comply with FAR requirement

FAR requirement                       Total    MARAD         FHWA           FTA          FRA        Volpe       NHTSA
Documentation of COR
                                   26 / 31         1/5         5/5          5/5         5/5          8/8           2/3
certifications
Source: OIG analysis of statistical sample of 31 cost-reimbursement awards from 6 DOT
Operating Administrations

The five awards in our sample that were missing documentation on COR
certification were from MARAD and NHTSA. For example, although MARAD

16
   Ship manager contracts maintain Ready Reserve Fleet ships in support of national emergencies and defense
objectives. Services may include maintenance, repair, logistics support, activation, operation, deactivation, crewing and
management for vessels.
17
   OMB, “The Federal Acquisition Certification for Contracting Officer Technical Representatives,” Nov. 26, 2007,
revised Sept. 6, 2011.
18
   GAO-13-117, DOT Lacks Data, Oversight, and Strategic Focus Needed to Address Significant Workforce
Challenges (Jan. 2013). In this report, GAO found that 53 percent of the Department’s CORs were not certified in
2011.
                                                                                     14


did not designate a COR for any of the five cost-reimbursement task order awards
in our sample, it did designate a COR for each of the associated base IDIQ
contracts. However, MARAD did not maintain documentation in either the base
contract or the task order files to verify that four of the five CORs were certified.
In addition, when we requested the certification support for these four CORs,
MARAD provided outdated certification support for two of the CORs and did not
furnish any certification support for the other two.

Operating Administrations Usually Ensure Adequate Contractor
Accounting Systems
According to the revised FAR requirements, the contracting officer must
determine the adequacy of the contractor’s accounting system. Our review
determined that 24 of the 31 awards in our sample had documentation showing the
contracting officer ensured that the contractor’s accounting system was adequate
(see table 7).

Table 7. Compliance With FAR Requirements on Ensuring
Adequate Contractor Accounting Systems

                                  Sample awards that comply with FAR requirement

FAR requirement           Total   MARAD      FHWA        FTA      FRA     Volpe    NHTSA
Adequate contractor
                        24 / 31      5/5       3/5      5/5      1/5       7/8      3/3
accounting system
Source: OIG analysis of statistical sample of 31 cost-reimbursement awards from 6 DOT
Operating Administrations

However, 7 of the 31 awards did not have evidence that the contracting officer
verified the contractor’s accounting system. For example, FRA awarded a contract
to a contractor whose accounting system had never been tested by a Federal
agency, and it did not ensure that this system was adequate. Since a contractor’s
accounting system is used to track the costs incurred on cost-reimbursement
awards, it is critical to ensure that the system is reliable.

CONCLUSION
DOT awarded approximately $506 million in cost-reimbursement awards in fiscal
year 2012—placing a large administrative burden on its acquisition workforce and
accepting greater cost and performance risk for its acquisitions. Given this
substantial investment, even minimal steps toward improving the management of
these high-risk awards could yield substantial savings for DOT, the Government,
and ultimately the taxpayers. Operating Administrations can do a better job of
managing their use of cost-reimbursement awards, starting with improved
                                                                                15


compliance with the revised FAR requirements, which are designed to assist in
this effort.

RECOMMENDATIONS
We recommend that the Office of the Senior Procurement Executive take the
following actions:

1. Update the Department’s Transportation Acquisition Manual (TAM) to reflect
   the revised Federal Acquisition Regulation (FAR) requirements for the use of
   cost-reimbursement awards, including consideration of task orders.

2. Until the TAM is revised, provide guidance such as acquisition policy letters to
   help acquisition personnel understand and properly implement the revised FAR
   requirements for the use of cost-reimbursement awards.

3. Require that the Maritime Administration’s Chief of the Contracting Office
   (COCO)
   a. develop guidance to ensure that ship manager contract files identify the
      assigned COR and specify which task orders the COR is responsible for
      overseeing (including whether the COR is responsible for all task orders, if
      applicable),
   b. implement a procedure to notify CORs of each planned task order before it
      is issued, and
   c. maintain adequate training documentation for members of its acquisition
      workforce.

4. Update the Department’s Contracting Officer’s Representative Program
   Guidance to reflect the revised FAR requirements for the use of cost-
   reimbursement awards.

5. Require the Operating Administrations to conduct periodic reviews to verify
   compliance with the revised FAR requirements for the use of cost-
   reimbursement awards and to report the results to OSPE.
                                                                                 16


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided OST with our draft report on May 20, 2013, and received its
response on July 9, 2013. OST’s complete response is included as an appendix to
this report. Although OST either concurred or partially concurred with all five of
our recommendations, OST raised a number of concerns with our findings. First,
OST disagreed that it was necessary to issue guidance to the Operating
Administrations regarding the revised FAR requirements. According to OST, our
report provided no evidence that guidance would have improved the acquisition
workforce’s behavior or compliance. However, as we reported, some Operating
Administrations, such as FHWA, implemented training or notified staff of the
revised FAR requirements resulting in higher rates of compliance than Operating
Administrations that did not take similar actions. Therefore, we did observe a
direct link between guidance and compliance, and OST subsequently concurred
with this recommendation.
Second, according to OST, we incorrectly interpreted best practice guidance as
requirements. In its example, OST stated that the OIG “over-interpreted” the
requirements in FAR 16.104, “Factors in selecting contract types,” which states
that “There are many factors that the contracting officer should consider in
selecting and negotiating the contracting type.” According to OST, the word
“should” is permissive and therefore optional. However, FAR 16.3, “Cost
Reimbursement Contracts”—as amended by the interim rule, effective March 16,
2011—clearly states that “a cost-reimbursement contract may be used only when”
(italics added for emphasis) the “factors listed in 16.104 have been considered.” In
addition, the Supplementary Information section of the interim rule states that
“FAR 16.301-3, Limitations, is amended to . . . ensure that all planning factors
have been considered per FAR 16.104.” Therefore, the revised FAR requirements
require the consideration of all planning factors before selecting a cost-
reimbursement contract type. Moreover, we were conservative in applying this
requirement to the contracts in our sample. We considered contracts compliant if
Operating Administrations considered at least 50 percent of the factors before
selecting a cost-reimbursable contract type.

Finally, OST’s response states that FAA awarded about 75 percent of DOT’s
$1.9-billion cost-reimbursable contract obligations in fiscal year 2012—a dollar
figure we originally cited in the introduction of our report. According to OST,
product and service codes indicate that these FAA contracts were all related to
complex information technology (IT) development projects, which can be
appropriate uses of cost-reimbursable contracts. While we acknowledge that many
of FAA’s contracts are associated with complex IT projects, we disagree that all of
them fall into this category. In fact, some of FAA’s IT projects involve hybrid
                                                                                  17


contracts comprised of several contract types, including fixed price. However, it is
important to note that we excluded FAA contracts from our review because FAA
maintains its own Acquisition Management System and is not subject to FAR
requirements for cost-reimbursement awards. To address OST’s concern and to
reflect our audit scope, we modified the figures in the introduction of our report to
exclude FAA obligations. After excluding FAA obligations, DOT’s cost-
reimbursable obligations still show an increase between fiscal years 2009 and
2012—from $322 million to $506 million.
Despite these concerns, OST either concurred or partially concurred with all five
of our recommendations. For recommendations 1, 2, 4, and 5, OST concurred with
our recommendations and provided appropriate planned actions and timeframes
that are responsive. Accordingly, we consider these recommendations resolved but
open pending completion of the planned corrective actions.
For recommendation 3, OST partially concurred. In its response, OST agreed with
the need for the recommendation regarding MARAD’s contracting practices, but
indicated that the recommendation would be most appropriately made to the
Maritime Administrator. However, we addressed recommendation 3 to OSPE
because the office has been delegated responsibility for performing both SPE and
CAO duties, per Title 49 CFR Section 1.38a. The specific responsibilities of the
SPE and CAO, as detailed in Title 41 United States Code Section 1702, include
monitoring acquisition activities and programs, developing unique acquisition
policies, and ensuring an adequate acquisition workforce—all of which align with
our intention for recommendation 3. Accordingly, we request that OSPE
reconsider its request that we redirect recommendation 3 to the Maritime
Administrator, and provide planned actions and timeframes to address this
recommendation. Until we receive this information, we consider recommendation
3 open and unresolved.
                                                                               18


ACTIONS REQUIRED
OST’s planned actions and timeframes for recommendation 1, 2, 4, and 5 are
responsive, and we consider these recommendations resolved but open pending
completion of the planned actions. We request that OST reconsider its request that
we redirect recommendation 3 to the Maritime Administrator, and provide planned
actions and timeframes to address the recommendation. In accordance with
Department of Transportation Order 8000.1C, we request that OST provide this
information within 30 days of this report. Until we receive this information, we
consider recommendation 3 open and unresolved.

We appreciate the courtesies and cooperation of DOT representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-5225 or Terry Letko, Program Director, at (202) 366-1478.

                                        #

cc:   Maritime Administrator
      MARAD Audit Liaison, MAR-392
      FHWA Audit Liaison, HAIM-13
      FRA Audit Liaison, RAD-41
      FTA Audit Liaison, TBP-30
      NHTSA Audit Liaison, NPO-310
      RITA Audit Liaison, RTC-1
      DOT Audit Liaison, M-1
                                                                                                                 19



EXHIBIT A. SCOPE AND METHODOLOGY
As required by the Duncan Hunter National Defense Authorization Act for Fiscal
Year 2009, this report provides the results of our work to determine whether DOT
complied with the revisions to the FAR on the use and management of cost-
reimbursement contracts, as prescribed in the FAR Case 2008-030. We conducted
our work from July 2012 through May 2013 in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

To conduct our work, we interviewed officials from the Department’s OSPE and
the Operating Administrations’ COCOs to determine what internal controls were
in place to encourage compliance with the revised FAR requirements on the use of
cost-reimbursement awards. We reviewed applicable Federal laws and
memorandums, the FAR case interim and final rules, and the revised FAR
sections. We also created a standardized checklist of these requirements to test the
compliance of a statistical sample of 31 cost-reimbursement awards.

To select our sample, we used the Federal Procurement Data System-Next
Generation (FPDS-NG) to extract a universe of all potential cost-reimbursement
awards 19 that DOT entered into between July 1, 2011, and May 31, 2012. The 655
awards in our universe had a total value of about $3.1 million. The timeframe of
our universe allowed DOT over 3 months to start implementing the new
requirements. We stratified the universe by the six Operating Administrations that
entered into cost-reimbursement awards during this time: (1) the Federal Transit
Administration, (2) the Research and Innovative Technology Administration/
Volpe, (3) the National Highway Traffic Safety Administration, (4) the Maritime
Administration, (5) the Federal Railroad Administration, and (6) the Federal
Highway Administration. 20 We then selected a stratified sample of 31 cost-
reimbursement awards with probability proportional to the value of the base award
plus all options. These 31 cost-reimbursement awards included 20 task orders and
11 contracts, with a total value of over $1.3 million. According to FPDS-NG, the
total value of the base awards plus options was over $643 million.

Although the Department continues to report annually on deficiencies in the
reliability of FPDS-NG data, we deemed the data sufficiently reliable for the

19
   We extracted this universe based on the contract type identified in FPDS-NG by selecting awards indicated as cost-
type or order dependent. Order dependent types could possibly represent a cost-reimbursement award, depending on
the individual task order.
20
   The Federal Aviation Administration was not included in this review because it is exempt from the FAR.


Exhibit A. Scope and Methodology
                                                                             20


purpose of this audit because we were able to validate the data elements we used
for the contracts in our statistical sample.




Exhibit A. Scope and Methodology
                                                                 21



EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Terrence Letko                          Program Director

Ann Wright                              Project Manager

Jill Cottonaro                          Senior Analyst

Stacie Seaborne                         Senior Analyst

Meredith Howell                         Analyst

Christina Lee                           Writer-Editor

Amy Berks                               Senior Legal Counsel

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician

William Savage                          Information Technology
                                        Specialist




Exhibit B. Major Contributors to This Report
                                                                                           22


APPENDIX. AGENCY RESPONSE



U.S. Department of                                                    1200 New Jersey Ave., SE
Transportation                                                         Washington, DC 20590

Office of the Secretary
of Transportation
                                                   July 9, 2013

MEMORANDUM TO:                Mary Kay Langan-Feirson
                              Assistant Inspector General for
                               Acquisition and Procurement Audits


FROM:


SUBJECT:                      Management Response to OIG Draft Report on the Use of
                              Cost Reimbursement Contracts

The Office of the Senior Procurement Executive (OSPE) continues its efforts to
strengthen procurement practices across the Department and provide up-to-date
comprehensive and consistent procurement guidance for all aspects of the acquisition
process including the use of cost reimbursement contracts. The OIG report highlights
areas that would benefit from further refinement in practice, including accommodating
evolving thought on the application of task orders on existing contracts to the revised
FAR, and operating administrations’(OA) producing more comprehensive documentation
of the decision process. However, the OIG report is lacking in key areas. For example, it
asserts a causal linkage between guidance and behavior, but provides no evidence of the
linkage. Further, it is an exaggeration to assert that the OAs created a “safe haven for
high risk contracting,” by using a valid contracting tool.
OSPE Provided Timely Interim Guidance to Operating Administrations
Within 30 days of the release of the interim rule and within 2 weeks of the release of the
subsequent final rule, OSPE, using its standard means of communicating with the DOT
procurement community highlighted the release of these changes and emphasized the
requirements and their importance. However, reiterating the FAR is neither appropriate
nor necessary to implement Federal provisions. In accordance with FAR 1.301, the
Department maintains the Transportation Acquisition Requirements and Manual in order
to enumerate agency policies and interrelationships among OST and the OAs with regard
to procurement activities. However, the Department also must abide by the provisions in
FAR 1.304, stating that agencies shall limit the issuance of agency directives that restrain
the flexibilities found in the FAR, and “shall not unnecessarily repeat, paraphrase, or
otherwise restate material contained in the FAR.” As a result, the expeditious reference
to the interim and final revisions to the FAR, were both appropriate and sufficient, and in
accordance with the express direction of the FAR.




Appendix. Agency Response
                                                                                          23


OSPE is Further Strengthening Procurement Structure and Practice
OSPE is updating procurement systems, practices and processes to apply a risk based
approach to acquisition oversight. Specifically, OSPE is updating the Department’s
Acquisition Oversight and Risk Management Policy to provide a more robust
departmental role in supporting acquisition oversight and stewardship. The updated
policy will recognize the importance and complexities of business decisions associated
with various contracting types and apply the resources of a new Acquisition Strategies
Review Board towards reviewing certain acquisition strategy documents and will better
ensure the rigor in application of FAR requirements across the Department. Further, the
OIG is aware of ongoing efforts to update the Transportation Acquisition Requirements
and Manual (TAR/TAM), by the end of the calendar year, and the OSPE is intent to keep
it up to date on an ongoing basis. Finally, it is important for the OIG to recognize that the
statutory structure of the Department places primary responsibility on the OAs for
managing the procurement planning and administration of acquisition requirements
within the context of Federal Acquisition Regulation and the Department’s requirements
established in the TAR/TAM. Within this context the Department relies on the OAs to
provide primary oversight to ensure compliance with acquisition requirements and
guidance, exercising sound business judgment as to the appropriate contract type, and
support key decisions as required in the FAR.
Cost Reimbursable Contracting is Used Judiciously
While the Department recognizes the Governmentwide efforts to reduce the use of cost
reimbursable contracts, FAR 16.3 recognizes that cost reimbursement contracts are
suitable for use when uncertainties involved in contract performance do not permit costs
to be estimated with sufficient accuracy to use any type of fixed price contract. It
specifically recognizes that a cost contract may be appropriate for research and
development work.
As a practical matter, cost reimbursable contracts are appropriate where
1) The object, scope, and nature of the work required cannot be definitely described,
2) Performance specification represents technical achievement of a performance goal
   not yet demonstrated, or
3) Products or tasks are technically complex.
Such circumstances are typical during research and development projects and complex
services, which might include complex information technology development projects.
Under such circumstances, the risk of underutilizing cost type contracts is that the vendor
community is forced to price the uncertainty into the contract price, which increases the
potential for the Department to pay too much.
Based on our cursory review of the OIG results, about 75 percent of the $1.9 billion total
cost reimbursable contracts for the Department in fiscal year 2012 were let from FAA. A
summary examination of the product and service codes (PSC) associated with these
contracts indicates that they were all related to the development and deployment of
complex information technology development projects. For example the $173 million
coded under S211 were development contracts for the Automatic Dependent Surveillance
– Broadcast (ADS-B) element of FAA’s NextGen system that is intended to replace
traditional radar surveillance systems.




Appendix. Agency Response
                                                                                        24


Also $259 million coded under 5820 was for the development of En Route Automation
Modernization (ERAM), one of the cornerstones of NextGen which processes flight radar
data, provides communications and generates display data to air traffic controllers. Such
types of development activities, as explained above, can make appropriate use of cost
reimbursable contracts
OIG Report Over-Interprets Federal Acquisition Regulation
While the OIG report identifies a number of areas where the state of the practice relating
to the application of the FAR can be enhanced, the report is diminished by its
interpretation of best practice guidance as requirements. For example the OIG report
states that “the revised FAR requirements state that a cost reimbursement award may
only be used when planning factors specified in FAR section 16.104…have been
considered.” This over interprets the language in FAR 16.104 that actually states, “there
are many factors that the contracting officer should consider in selecting and negotiating
the contracting type, including….” This is not an exclusionary statement that precludes
the use of cost reimbursable contracts as portrayed in the OIG report, but rather an
advisory of some of the areas that should be considered. We agree that these factors
should be considered and are working hard to fully implement this guidance in a
consistent way across the Department, but it is also well understood that there is a
significant different between “should,” which is permissive, and “shall,” which is an
absolute, unyielding requirement (such as that mentioned earlier for FAR 1.304). The
OIG report needs to accommodate recognition of this key distinction, and ensure that
throughout its presentation, it accurately represents the FAR.
RECOMMENDATIONS AND RESPONSES
The OIG draft report makes the following recommendations to OSPE:
Recommendation 1: Update the Department’s Transportation Manual (TAM) to reflect
the revised Federal Acquisition Regulation (FAR) requirements for the use of cost-
reimbursement awards, including consideration of task orders.
Response: Concur. As described in response to a previous OIG recommendation, OSPE
is engaged in updating the TAR/TAM. This update will include the sections regarding
the use of cost-reimbursement contracts. The target date for completing the update is
December 31, 2013.
Recommendation 2: Until the TAM is revised, provide guidance such as acquisition
policy letters to help acquisition personnel understand and properly implement the
revised FAR requirements for the use of cost-reimbursement awards.
Response: Concur. OSPE will provide the DOT acquisition community with
supplemental guidance to convey evolving interpretations of the revised FAR. This will
include its applicability to Task Orders, FAR requirements for adequate documentation,
ensuring the adequacy of a contractor’s cost accounting system, and other aspects
touched upon in the OIG report, as appropriate. The target date for completing this
acquisition policy letter is August 30, 2013.




Appendix. Agency Response
                                                                                      25


Recommendation 3: Require that the Maritime Administration’s Chief of the
Contracting Office (COCO):
a. Develop guidance to ensure that ship manager contractor files identify the assigned
   Contracting Officer’s Representative (COR) and specify which task orders the COR
   is responsible for overseeing (including whether the COR is responsible for all task
   orders, if applicable),
b. Implement a procedure to notify CORs of each planned task order before it is issued,
   and
c. Maintain adequate training documentation for members of its acquisition workforce.
Response: Concur in part. Recommendations relating to the development of procedures
specific to contracting in the Maritime Administration would be most appropriately made
to the Maritime Administrator. While OSPE agrees with the need for each of the
elements of the recommendation, and it is our understanding that MARAD has actions
underway or completed in each of the areas described, we suggest the OIG consider
issuing the final report with this recommendation directed to the Maritime Administrator.
Recommendation 4: Update the Department’s COR Program Guidance to reflect the
revised FAR requirements for the use of cost-reimbursement awards.
Response: Concur. OSPE will issue updated COR program guidance that includes
updated information on the revised FAR requirements for the use of cost reimbursement
contracts. The target date for complete the update is December 31, 2013.
Recommendation 5: Require the OAs to conduct periodic reviews to verify compliance
with the revised FAR requirements for the use of cost-reimbursement awards and to
report the results to OSPE.
Response: Concur. The TAR/TAM will specify that OAs are expected to conduct
periodic reviews to verify FAR compliance for the use of cost-reimbursement awards and
report the results to OSPE. This provision will be included in the updated intended for
completion by December 31, 2013.




Appendix. Agency Response
